<html>
<title> - OUTLOOK FOR IRAQ AND U.S. POLICY</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



                    OUTLOOK FOR IRAQ AND U.S. POLICY

=======================================================================


                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 10, 2009

                               __________

                           Serial No. 111-48

                               __________

        Printed for the use of the Committee on Foreign Affairs

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______

                  U.S. GOVERNMENT PRINTING OFFICE
 52-145PDF                WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001





                      COMMITTEE ON FOREIGN AFFAIRS

                 HOWARD L. BERMAN, California, Chairman
GARY L. ACKERMAN, New York           ILEANA ROS-LEHTINEN, Florida
ENI F.H. FALEOMAVAEGA, American      CHRISTOPHER H. SMITH, New Jersey
    Samoa                            DAN BURTON, Indiana
DONALD M. PAYNE, New Jersey          ELTON GALLEGLY, California
BRAD SHERMAN, California             DANA ROHRABACHER, California
ROBERT WEXLER, Florida               DONALD A. MANZULLO, Illinois
ELIOT L. ENGEL, New York             EDWARD R. ROYCE, California
BILL DELAHUNT, Massachusetts         RON PAUL, Texas
GREGORY W. MEEKS, New York           JEFF FLAKE, Arizona
DIANE E. WATSON, California          MIKE PENCE, Indiana
RUSS CARNAHAN, Missouri              JOE WILSON, South Carolina
ALBIO SIRES, New Jersey              JOHN BOOZMAN, Arkansas
GERALD E. CONNOLLY, Virginia         J. GRESHAM BARRETT, South Carolina
MICHAEL E. McMAHON, New York         CONNIE MACK, Florida
JOHN S. TANNER, Tennessee            JEFF FORTENBERRY, Nebraska
GENE GREEN, Texas                    MICHAEL T. McCAUL, Texas
LYNN WOOLSEY, California             TED POE, Texas
SHEILA JACKSON LEE, Texas            BOB INGLIS, South Carolina
BARBARA LEE, California              GUS BILIRAKIS, Florida
SHELLEY BERKLEY, Nevada
JOSEPH CROWLEY, New York
MIKE ROSS, Arkansas
BRAD MILLER, North Carolina
DAVID SCOTT, Georgia
JIM COSTA, California
KEITH ELLISON, Minnesota
GABRIELLE GIFFORDS, Arizona
RON KLEIN, Florida
                   Richard J. Kessler, Staff Director
                Yleem Poblete, Republican Staff Director
            Alan Makovsky, Senior Professional Staff Member
        Genell Brown, Senior Staff Associate/Hearing Coordinator






                            C O N T E N T S

                              ----------                              
                                                                   Page

                                WITNESS

The Honorable Christopher R. Hill, American Ambassador to Iraq...     9

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Christopher R. Hill: Prepared statement............    13
The Honorable Sheila Jackson Lee, a Representative in Congress 
  from the State of Texas: Material submitted for the record.....    43

                                APPENDIX

Hearing notice...................................................    54
Hearing minutes..................................................    55
The Honorable Howard L. Berman, a Representative in Congress from 
  the State of California, and Chairman, Committee on Foreign 
  Affairs: Prepared statement....................................    57
The Honorable Dan Burton, a Representative in Congress from the 
  State of Indiana: Prepared statement...........................    59
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the State of Virginia: Prepared statement.................    62
The Honorable Gene Green, a Representative in Congress from the 
  State of Texas: Prepared statement.............................    64
Written responses from the Honorable Christopher R. Hill to 
  questions submitted for the record by the Honorable Barbara 
  Lee, a Representative in Congress from the State of California.    65

 
                    OUTLOOK FOR IRAQ AND U.S. POLICY

                              ----------                              


                      THURSDAY, SEPTEMBER 10, 2009

                  House of Representatives,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:39 a.m. in room 
2172, Rayburn House Office Building, Hon. Howard L. Berman 
(chairman of the committee) presiding.
    Chairman Berman. The committee will come to order. First, 
let me indicate that at some point, around 10:30 or 10:40, I am 
going to have to leave for a while and Mr. Ackerman, the vice 
chair of the committee and chair of the Middle East 
Subcommittee, will preside during that time. I also wanted to 
make clear our committee's policy on handling protests.
    We have no objection to audience members wearing T-shirts 
and hats expressing their views, but to maintain order in the 
hearing room, we request that the audience members do not hold 
up or wave signs, make gestures to attract attention, stand up 
and protest, shout or yell their views or otherwise disrupt the 
hearing. We will ask the Capitol Police to remove anyone from 
the room who violates this policy. It is the policy of the 
Capitol Police to arrest anyone who is ejected from a hearing 
room.
    I will now recognize myself for an opening statement. Six 
months ago, President Obama set out his vision and timetable 
for United States involvement in Iraq. Since that time, 
Christopher Hill, one of our most talented and skilled 
diplomats, was appointed and confirmed as the U.S. Ambassador 
in Baghdad. We are very pleased to welcome him back to the 
committee for the first time in his new role, and look forward 
to his assessment of whether the President's vision is taking 
hold, and whether his timetable is on track.
    In his February 27 speech at Camp Lejeune, President Obama 
emphasized that all United States combat forces would leave 
Iraq by the end of August 2010--a little less than 1 year from 
now. Under the agreement reached with the Iraqi Government in 
the final weeks of the Bush administration, we are, in fact, 
obligated to remove all our forces from Iraq 16 months after 
that, by the end of 2011.
    President Obama also made clear that Iraqis had been given 
what he called ``a precious opportunity'' to shape their own 
future. He emphasized, ``the long-term solution in Iraq must be 
political, not military,'' and that ``the most important 
decisions about Iraq's future must now be made by Iraqis.'' Two 
thousand and ten will be a milestone year for Iraq, as well as 
the United States.
    In January, Iraqis will go to the polls to elect a new 
government. Over the following 7-plus months, our combat forces 
will depart.
    We have already withdrawn from Iraqi cities, as of June 30. 
Based on the most recent figures, we are currently at the pre-
surge level of roughly 130,000. Well over half those troops 
will be withdrawn by this time next year.
    Mr. Ambassador, we would like to know: Will the Iraqi 
security forces be able to maintain order and protect their 
borders as the United States presence dramatically dwindles? 
Are the Iraqis ready to step up? More broadly, we would like to 
know whether Iraqis are, in fact, seizing the opportunity they 
have been given.
    In his Camp Lejeune speech, President Obama also noted, 
``Too many fundamental political questions about Iraq's future 
remain unresolved.''
    Mr. Ambassador, we would like your assessment whether this 
remains true today.
    Do the Iraqis have the political will to maintain national 
cohesion? Do they share sufficiently a national vision that 
will sustain peace with their neighbors but independence from 
the encroachments of neighbors, such as Iran, that would 
dominate them? What is the attitude of Iraq's neighbors as we 
prepare to withdraw?
    How strong is Iran's influence and what are Iran's 
intentions? Is Syria harboring Iraqi Baathists who direct acts 
of terrorism, as Baghdad claims, and still facilitating transit 
of anti-Iraqi terrorists across its border?
    Do we foresee any pitfalls ahead in Turkey's relations with 
Baghdad, and particularly with Iraqi Kurdistan, which have 
heretofore developed in a positive direction that would have 
surprised us just a few years ago?
    What sort of relationship should we anticipate with Iraq--
politically, economically and militarily--in the wake of our 
withdrawal? Are the Iraqis committed to repatriating, in the 
fairest and most humane way possible, the millions of their 
citizens who have been internally displaced or made refugees as 
a result of the war? This last question reminds us of our own 
ongoing responsibilities, which are likely to outlast our troop 
presence.
    I want to commend our Embassy in Baghdad and the State 
Department, which, along with the Department of Homeland 
Security, have launched a rare, in country processing program 
to help settle Iraqis in the United States--Iraqis who have 
helped us and found their lives endangered as a result.
    A great deal of the credit for this program belongs to our 
late and much-missed friend, Senator Ted Kennedy, who first 
raised alarm bells about Iraqi refugees on Capitol Hill and 
later used his notable skills as a negotiator to ensure passage 
of the Iraq Refugees Act of 2007. We will make sure that the 
United States continues to offer protection to those who have 
risked their lives on our behalf in Iraq.
    Mr. Ambassador, we look forward to your answers to these 
and other key questions about the future of Iraq and our 
involvement there.
    I now turn to the distinguished ranking member, my friend, 
Ileana Ros-Lehtinen, for any opening remarks that she might 
wish to make.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman. Thank 
you for those remarks and for the opportunity to give my 
statement. I also will be following you to our next meeting, 
unfortunately, off the Hill, so I will ask Mr. Burton if he 
would be kind enough to step in for me when we depart. Thank 
you. So thank you for holding this important hearing, Mr. 
Chairman.
    The last time the full committee reviewed United States 
policy toward Iraq on April 9, 2008, General Petraeus and 
former Ambassador Crocker reported that all major violence 
indicators, such as the number of attacks against United States 
and Iraq forces and Iraqi civilian deaths had been reduced to 
close to the low spring 2003 levels. As a result, the surge was 
declared as having ended on July 31, 2008.
    Among the surge accomplishments, some areas formally 
written off as al-Qaeda strongholds are experiencing normal 
life. Similarly, Iran-supported Shia militias in Basra, Baghdad 
and throughout the southern portion of the country were 
confronted by the Iraq Government and United States forces in 
March 2008 and have since seen their capabilities greatly 
reduced.
    Even with great recent gains in security, both al-Qaeda and 
affiliated insurgent groups, as well as some Iranian-supported 
militias, remain potent threats in Iraq and there can be no 
room for complacency. The administration must reinforce a 
policy which demonstrates that success in Iraq remains a 
national priority.
    In a speech earlier this year the President stated that by 
August 31, 2010 our combat mission in Iraq will end. He also 
asserted his intention to remove all United States troops from 
Iraq by the end of 2011. However, the United States' strategy 
must look at more than just when and how quickly U.S. forces 
should and must be removed. A conditions-based strategy must be 
developed and implemented to ensure that U.S. strategic 
interests are preserved beyond the departure of U.S. forces.
    The key U.S. mission is to execute a transition over the 
period up to 2011 and beyond that will create a strong, 
democratic, independent Iraq that will be a strategic partner 
in bringing further security and stability to the Gulf. The 
U.S. must prepare to make the transition to a civilian lead 
that is backed by an adequate mix of U.S. resources and 
capabilities.
    One thing is certain. The United States cannot sit idly by 
and allow the situation in Iraq to determine its own course. 
U.S. involvement, particularly the role of our diplomats, in 
shaping and achieving an outcome supportive of our national 
security priorities is vital. The United States strategy must 
include a training mission that will help Iraq become truly 
independent not only of U.S. forces, but in dealing with the 
ambitions of all of its neighbors.
    With respect to those neighbors, particularly Iran, I am 
concerned about Iraqi actions being undertaken at the behest of 
the Iranian regime with respect to Ashraf. On that issue, Mr. 
Ambassador, what specific measures have been undertaken in the 
interim to ensure that the rights of the residents in the camp 
are being preserved, especially against their involuntary 
repatriation to Iran?
    Given the tensions of dozens of Ashraf residents, what is 
the position of the State Department on this situation? How is 
the United States protecting Ashraf residents from physical and 
other harm? As we can see, we have some folks in the audience 
who are concerned with that as well. Mr. Ambassador, these 
requirements raise the following questions. Does the U.S. have 
a strategy, an integrated, civil, military plan that is 
operational, for overseeing the transition from a Defense 
Department to a State Department-led mission?
    How will the State Department take over the lead from the 
U.S. military? What has the administration identified as the 
actions to be taken, the resources required and the estimated 
benefits, risks and measures of effectiveness for carrying out 
such a transition? While we understand that some of this 
planning is already under way with the United States team in 
Iraq, could you elaborate on how much of the planning has been 
completed?
    What set of contingency plans and options for dealing with 
serious crises is the State Department developing, particularly 
as our ability to respond diminishes steadily as our forces 
drop and Iraqi politics dominate events? It is my hope that the 
same successful collaborative relationship that existed between 
General Petraeus, the different generals and Ambassador Crocker 
will continue under your leadership, Ambassador Hill.
    A strong civilian-military relations and a robust civil-
military framework are instrumental to achieving success in 
Iraq. Mr. Chairman, it is my sincere hope that this committee 
will methodically take stock of what has transpired in Iraq 
since April 2008, what is the current situation, what our long-
term priorities are, and determine the best way forward. As 
always, Mr. Chairman, I thank you for your kindness and your 
generosity and your spirit of bipartisanship in this committee. 
Thank you, my friend.
    Chairman Berman. Thank you very much, Madam Ranking Member. 
I am now pleased to recognize for 3 minutes the chairman of the 
Middle East and South Asia Subcommittee, Mr. Ackerman.
    Mr. Ackerman. Thank you, Mr. Chairman. Welcome, Ambassador 
Hill. Most Americans don't think much about Iraq anymore, not 
unless they still have family or friends there. The fact is in 
Iraq today there are still close to 130,000 American troops, 
more than 3,200 other government employees, and almost 34,000 
American contractors.
    Since 2003, the United States has provided close to $50 
billion in reconstruction assistance to Iraq, and by the end of 
this year, the United States will probably have spent more than 
$700 billion in the war in Iraq. More precious still, so far 
this year another 113 American troops have died in Iraq, 
bringing the total losses to 4,261. In the pain of their 
families and that of their tens of thousands of wounded 
comrades, the human cost rises past measurement.
    The loss of American lives and expenditures of such 
colossal sums should attract more public attention but Iraq is 
no longer something Americans want to think about. 
Collectively, and I include Congress here, we have disengaged 
far more rapidly than our troop withdrawal plan suggests and 
probably much faster than our national security interests 
should allow.
    Just because we have committed to withdrawing our combat 
brigade by next summer and our advisors and trainers a year 
later does not mean Iraq is no longer our concern. Truly grave 
peril awaits us if we should turn our backs on this country as 
we chose to ignore Afghanistan and Pakistan following the 
defeat of the Soviets.
    Tomorrow is the eighth anniversary of 9/11. A lesson we 
should have learned that day is that even if we don't visit bad 
neighborhoods, they can still visit us. The planet has become a 
very small place. Because of its size, its resources, its 
population and location, Iraq is not a nation we can safely 
ignore. Neither Iran, nor al-Qaeda, is going to forget about 
Iraq, and also, we, too, must not forget about Iraq.
    Since May, Iraq has suffered from growing violence as the 
reality of United States departure sinks in. The movement of 
United States troops out of Iraqi cities was a day of 
celebration among Iraqis and a key milestone for ourselves, but 
that moment was also a signal to all the players in the country 
and the region that the rules had changed and the future of 
Iraq was back in play. Not every player wants to see Iraq 
succeed.
    Within the constraint of absolute respect for Iraq's 
sovereignty and the spirit of partnership, I believe we must 
maintain for our own national security interests an ongoing 
effort to help Iraq emerge as a truly independent, sovereign 
state capable of defending its own borders and maintaining law 
and order within them. Our troops will be going home, but that 
does not mean we will be walking away. Thank you, Mr. Chairman. 
I yield back the balance of my time.
    Chairman Berman. Thank you, Mr. Ackerman. Now, I am pleased 
to recognize the ranking member of the Middle East and South 
Asia Subcommittee, Mr. Burton, for 3 minutes.
    Mr. Burton. Mr. Chairman, I would like to have my whole 
statement submitted for the record and just make a few brief 
comments.
    Chairman Berman. It will be included.
    Mr. Burton. Mr. Chairman, the Iranian Government still are 
involved in Iraq. They have sent explosive form projectiles 
into Iraq, and it was reported I think just today, if I am not 
mistaken, that they have found these Iranian produced EFPs in 
Afghanistan as well. The President's anticipating sending more 
troops over there. We must stop Iran's involvement in both Iraq 
and Afghanistan.
    So, Mr. Chairman, you know how much I admire you, and you 
know how much I respect you. I respect you so much that I am 
co-sponsoring your bill called the Iranian Sanctions Act. We 
tried to, in a number of ways, bring that bill to the floor and 
you said we had to wait until September. Well, Mr. Chairman, it 
is September. We sure would like to have your bill to the 
floor. I want you to know I will do everything in my power to 
work with you to make sure that bill gets passed.
    I want to thank the ranking member of the full committee, 
Ms. Ros-Lehtinen, for her opening remarks because I think it 
covered most of the things that we need to discuss today. 
Nevertheless, I am rooting for you, Mr. Chairman. Let us get 
that bill to the floor. I yield back.
    Chairman Berman. With your support, what could stop us? 
Now, because of the importance of the subject, if there are any 
other members who wish to speak for 1 minute, I am prepared to 
recognize them. Let us see. Mr. Connolly? The gentleman is 
recognized for 1 minute.
    Mr. Connolly. Mr. Chairman, I have a prepared statement I 
will just enter into the record. I want to welcome the 
Ambassador here today. I had the opportunity to travel to Iraq 
in February. I am most eager to hear the Ambassador's 
assessment of the situation in Iraq. Obviously, things when I 
was there seem to have stabilized.
    Since then we have seen a number of additional attacks 
which raises questions about the stability of the country and 
the ability of the Iraqi security forces to be able to try to 
move us toward a more stable situation, and so I am going to be 
looking forward to Ambassador Hill's assessment of that 
situation this morning.
    I thank you, Mr. Chairman, for holding these hearings.
    Chairman Berman. Time of the gentleman has expired. The 
gentleman from California, Mr. Rohrabacher.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman. There 
are many of us who supported President Bush when he initiated 
this action in Iraq and some of us feel that perhaps that 
support was something that we now regret, quite frankly. We 
have, the American people, given the Iraqi people a chance: A 
chance to have a better life, a chance to have a more 
democratic system, a chance to live in some modicum of freedom 
and democracy, but we have paid an awful, a dreadful price to 
give those people, those 20 million or 30 million people of 
Iraq, this opportunity.
    Mr. Chairman, what is most disconcerting about this whole 
episode in American history is here we have paid the price in 
blood and treasure, $1 trillion, but we see so little gratitude 
from the people of Iraq, and now they seem to be giving the 
economic benefits of a relationship to the Communist Chinese 
rather than doing business with our own businesses.
    Chairman Berman. The time of the gentleman has expired. The 
gentleman from New York, Mr. McMahon.
    Mr. McMahon. Thank you, Mr. Chairman. I, too, will be brief 
and submit a more formal statement to the record. Just to say, 
Ambassador Hill, what an honor it is to have you with us today. 
Your longstanding career in Foreign Service is a tribute to 
your dedication to this nation. Your experience dealing with 
difficult regimes, if you will, in the past certainly makes you 
a wonderful candidate for this post.
    I would just like to, I think it has been stated already, 
but just the concerns that we have about the growing influence 
of Iran in Iraq, and if you will speak to that at length. You 
know, I think we have to stand strong against Iran. It poses a 
major security threat to Israel and to the Sunni Arab-led 
governments in the region. We would like to hear your insights 
on that as you go forward. I yield the remainder of my time. 
Thank you, Mr. Chairman.
    Chairman Berman. The time of the gentleman has expired. 
Does anyone on the--Mr. Poe seeks recognition. The gentleman 
from Texas is recognized for 1 minute.
    Mr. Poe. Thank you, Mr. Chairman. I am concerned about 
Iranian influence in Iraq directly and indirectly, the violence 
they are causing, and also, the influence on now the Iraqi 
security forces, specifically Camp Ashraf, when on July 28 the 
security forces came into Camp Ashraf, killed 11 people, 
captured these 36, now holding them even though an Iraqi Judge 
has ordered these individuals to be released 2 weeks ago. They 
are still in captivity.
    What obligation, other than a letter that has been sent by 
the State Department to the Iraqi Government to do the right 
thing and obey the law, that has obviously been filed, what are 
we doing to make sure we have the ability to secure the safety 
of these people, especially as we turn down or leave the area 
next year and the year after? We have the moral and legal 
obligation to secure the safety of these individuals. What are 
we doing? Thank you. I yield back.
    Chairman Berman. The gentleman from Texas, Mr. Green, seeks 
recognition and is recognized for 1 minute.
    Mr. Green. Mr. Chairman, I would like to place a statement 
in the record and welcome Ambassador Hill. Look forward to your 
testimony. I yield back.
    Chairman Berman. Anyone else seek recognition on the 
minority side? Mr. Scott, the gentlemen from Georgia, is 
recognized for 1 minute.
    Mr. Scott. Yes. Thank you, Mr. Chairman. Mr. Hill, I think 
that given what is happening now and with the situation and the 
relationship that is impending with the borderous states of 
Iraq and Syria, with blame being placed on the former Hussein 
Baathists, a combination of that and al-Qaeda Sunnis, the 
arguments between now the President of Iraq and the Prime 
Minister of Iraq, all of this spells a formula of imminent 
disaster.
    In the midst of all of that, the troops, our troops who are 
maintaining order and security in the region, have left, we 
have got the issue of the refugees needing protection, so it 
begs the question at what point is there a tipping point? Is 
there any indication where we could get to that point where we 
alter the schedule of withdrawal of troops in the face of the 
need to maintain order? Is there that point?
    Is there that set of circumstances that the President could 
say wait a second, we may need to pause, we may need to slow 
this withdrawal, we may need to keep these troops in there to 
maintain order? I think that is the fundamental question that 
we need to examine today as well.
    Chairman Berman. The gentleman from South Carolina, Mr. 
Inglis, is recognized for 1 minute.
    Mr. Inglis. Thank you, Mr. Chairman. I think others have 
mentioned this. Mr. Ambassador, we look forward to hearing from 
you about what is happening at Camp Ashraf, and really would 
join in expressing concern about the violation of Geneva 
Convention and hope that the United States can put appropriate 
pressure on the Iraqis to act in a humane way and consistent 
with the conventions. So look forward to hearing from you about 
that, as well as other things. Thank you, Mr. Chairman.
    Chairman Berman. Thank you. The time of the gentleman has 
expired. Does anyone--the gentleman from California, Mr. Costa, 
is recognized for 1 minute.
    Mr. Costa. Thank you very much, Mr. Chairman, for this 
important hearing. Mr. Ambassador, I, obviously with the other 
comments that members have made, am interested in your 
testimony on those points. Like others, I have been in Iraq a 
number of times over recent years. I am interested in also in 
your testimony a focus on how well this effort to put together 
a democracy where it has never existed before is coming 
together and what is your outlook for potential success with 
future elections.
    They haven't made progress yet on a carbon bill that will 
share the wealth. It seems to me that the success of this 
government is all about sharing power and sharing the economic 
wealth. I would like to know where you think they are going on 
those points. I look forward to the testimony. Thank you very 
much.
    Chairman Berman. Time of the gentleman has expired. The 
gentleman from American Samoa, Mr. Faleomavaega, is recognized 
for 1 minute.
    Mr. Faleomavaega. Thank you, Mr. Chairman. Appreciate your 
leadership in calling this hearing this morning. I want to 
offer my personal welcome to my dear friend and former 
Assistant Secretary for East Asia and Pacific Affairs, Chris 
Hill, and now as our new Ambassador to Iraq. Looking forward to 
hearing from Ambassador Hill, and, as I am sure, we are going 
to have a very lively discussion of the issue of Iraq. Thank 
you, Mr. Chairman.
    Chairman Berman. Thank you. The time of the gentleman has 
expired. Seeing no other requests for recognition, I would now 
like to introduce our witness. I would again like to welcome 
Ambassador Chris Hill, a career member of the Senior Foreign 
Service and the current U.S. Ambassador to Iraq. I have already 
sung his praises, as have others on the committee. Here is some 
supporting evidence.
    Ambassador Hill is a familiar face to the committee having 
testified previously as Assistant Secretary of State for East 
Asian and Pacific Affairs in which capacity he also was the 
lead United States negotiator at the Six-Party Talks on the 
North Korean nuclear issue immediately prior to his arrival in 
Baghdad.
    Ambassador Hill has also served as U.S. Ambassador to South 
Korea, Poland, Macedonia and a special envoy to Kosovo. Earlier 
in his career he completed tours in Warsaw, Seoul, Tirana and 
served on the State Department's policy planning staff and as 
senior director for Southeast European affairs at the National 
Security Council.
    He has twice received the Secretary's Distinguished Service 
Award, the Department of State's highest award, for his work in 
Bosnia and in the Korean peninsula. He also received the Robert 
S. Frasure Award for peace negotiations for his work on the 
Kosovo crisis. No stranger to Capitol Hill, Ambassador Hill was 
an American Political Science Association fellow in the office 
of Congressman Steve Solarz some years ago.
    A graduate of Bowdoin College with a B.A. in economics and 
a graduate degree from the Naval War College, Ambassador Hill 
has also served as a Peace Corps volunteer in Cameroon where I 
recall reading he helped expose fraud in rural credit unions. 
Ambassador Hill, it is yours.

   STATEMENT OF THE HONORABLE CHRISTOPHER R. HILL, AMERICAN 
                       AMBASSADOR TO IRAQ

    Ambassador Hill. Thank you very much, Mr. Chairman. I have 
a statement I would like to submit for the record.
    Chairman Berman. That statement will be included in its 
entirety.
    Ambassador Hill. Thank you. Chairman Berman, members of the 
committee, I want to thank you very much for the opportunity to 
speak today about this historic opportunity we have in Iraq as 
we transition from a military to a civilian-led mission and 
about our efforts to develop a strong and a long-term 
normalized relationship with this key country in the Middle 
East.
    This is the start of a 12-month period at the end of which 
all United States combat forces will be withdrawn from Iraq. It 
is, therefore, a very critical 12 months. It is the 12 months 
in which we will have to work very carefully, and very closely, 
together to ensure that the gains we have made, gains that as a 
number of you have pointed out cost us dearly, but gains that 
nonetheless we can consolidate.
    Mr. Chairman, we have a huge interest in capitalizing on 
the opportunities that Iraq presents. Iraq is at the center of 
the Middle East. It is bordering key countries, like Saudi 
Arabia, Iran and our NATO ally, Turkey; it is where the Scion 
world meets the Shia world; it is where the Kurdish world meets 
the Arab world. Indeed, the Iraqi people are also blessed to 
have some over 100 trillion barrels of oil making them the 
third largest oil, having the third largest oil reserves in the 
world.
    For the first time in decades now, Iraq has a real chance 
to become an engine for regional stability and regional growth 
rather than a source of regional tension and dispute. Mr. 
Chairman, as we transition to this civilian effort, we look to 
help foster security through active diplomacy, to contain and 
begin to resolve internal disputes, disputes within Iraq, and 
to foster longer term stability by assisting Iraqis in building 
a market-oriented economy and a genuinely representative and 
accountable government.
    Over time, as our programs make progress on these economic 
and political goals, we will significantly reduce our civilian 
presence both in the provinces and at the Embassy in Baghdad. 
Iraq has suffered a series of attacks over the past several 
weeks, including several on minority communities. Particularly 
horrifying were the attacks on the Iraqi Foreign and Finance 
Ministries on August 19.
    The reality is that the Iraqi people have stood firm and 
have rejected retribution and a new cycle of violence such as 
the ones that brought Iraq to that brink in 2006. There has 
actually been some good news. Iraq during this past year staged 
two rounds of successful elections, the provincial council 
elections and 14 of their 18 provinces in January elections, 
and the Kurdistan regional government in July.
    Today, in fact, new provincial councils operate aware that 
voters will have an opportunity to judge their performances in 
the next elections. Preparations have begun for the national 
elections scheduled for January 2010. The council 
representatives, that is, their Parliament, is working on an 
election law to govern the conduct of the elections, and Iraq's 
high electoral commission has begun to register voters, and 
political parties are negotiating coalitions, several of which 
are likely to be cross-sectarian.
    We will continue to work with the Iraqi leadership to 
ensure that this process is completed, but I am pleased to 
report that politics has definitely been embraced in Iraq. 
There is no question that Iraq has the resources to become 
stable and successful, but it needs to better mobilize these 
resources, starting with oil. On June 30, the Iraqi Ministry of 
Oil held a bid round with 32 international oil companies 
competing for six oil fields and two gas fields.
    One field was awarded. That field is one of Iraq's largest 
producing oil fields, one that could help boost, possibly even 
double, Iraq's current oil production. The bid went to a 
British firm with a Chinese minor partner. There are other bids 
for the other fields that were not successful, but there are 
continuing discussions to see if they can find success in those 
other fields.
    A second bid round planned for later this year will include 
larger fields that have been minimally developed. In the run up 
to the next bid round we are urging the Iraqis to recognize the 
opportunity it presents. This round needs to be a success. We 
have discussed intensively with Iraqi Government how it can 
make its investment climate in the sector more attractive.
    Provided the Iraqis can also reach consensus on a 
hydrocarbons legislation and on revenue sharing, it could be a 
real game changer for the country. Iraq really needs to focus 
on its economy. I would put economy right up there with 
security and the political situation if Iraq is going to be 
successful. I can assure you we will keep urging progress on 
market reforms.
    During his visit to the United States in July, during which 
Prime Minister Maliki met with a number of our senior officials 
and also made a visit to Arlington Cemetery to honor those who 
have fallen in this war, Prime Minister Maliki announced plans 
for the first U.S.-Iraq business and investment conference to 
be held October 20 and 21 here in Washington.
    Some 200 representatives from Iraq will attend the 
conference, led by delegations of senior government officials. 
Preceding that conference, we will have several high level 
Iraqi officials here for dialogues on economic cooperation, 
which is a bilateral economic policy discussion, to highlight 
the steps they need to take.
    These events will be significant steps as we help Iraq 
attract foreign investors, stand up a market economy and pay 
their bills. A market economy in Iraq can generate economic 
growth and increased employment opportunities and it will also 
weaken the insurgents and the extremist networks. Were Iraq to 
rebuild its infrastructure and economy on the scale that its 
neighbors in Saudi Arabia and the Gulf did in the 1970s and 
1980s, it could be that engine that would help the regional 
economy. Indeed, beyond that, to the world.
    Beyond bilateral and economic issues, I want to stress that 
the Iraq issues do not exist in a vacuum. A look at a map will 
clearly show that Iraq is located in the center of a highly 
complex neighborhood. Iran's influence is a reality, and I look 
forward to discussing that with members of the committee.
    We recognize that elements of Iran's influence, such as 
trade and religious tourism, can have a positive impact, but 
too often it plays a negative role, meddling in internal 
politics. With Syria, tensions persist between Baghdad and 
Damascus and tensions have risen in recent weeks. Iraq's 
history with Kuwait is also difficult, and, as we all know, the 
problems reach back beyond 1990.
    So there is a fundamental question that I think we need to 
look at: Will the Sunni Arab world make room for an Iraq, an 
Arab state which will probably have the Shia in a leading role? 
That is a critical question. Another critical question is, of 
course, will Iran respect Iraq's sovereignty and understand 
that we, the United States, intends to have a long-term 
relationship with Iraq, and that we, the United States, 
consider a strong Iraq a positive element in the region?
    There are many internal threats to Iraq's stability 
although the extreme Sunni Shia violence of 2006, 2007 has 
abated and often because of our direct intervention, our work 
with people, our political and other efforts there. 
Nonetheless, the bombings in recent months show that we still 
have to deal with al-Qaeda in Iraq that tries to rekindle 
violence.
    To the great credit of the Iraqi people, however, they have 
not risen to the bait. Our diplomacy has a vital role to play. 
We look to be active in supporting resolution of disputes, 
territorial disputes, in northern Iraq between the Kurds and 
the Arabs. I, myself, was just in Iraqi Kurdistan discussing 
with President Barzani how we could move ahead on these issues.
    We would like to see the vital oil sector. Again, I think 
oil is a crucial component of getting that country on its feet, 
and we would like to see those issues resolved, especially in 
the thorny area of Kirkuk. So we have a lot of work to do 
together, but we feel we are very much engaged with Iraqi 
Kurdish partners as well. I am pleased to tell you, Mr. 
Chairman, that the U.S. Embassy, we consider ourselves very 
much joined at the hip with our military colleagues.
    The U.S. military has been an extremely positive force in 
that country, not only in liberating it from Saddam Hussein, 
but in working with the various political elements there in 
trying to get the economy going and in keeping the country 
together, and I think we can all be very, very proud of what 
our military has succeeded in doing there.
    I worked very close with General Odierno and I am pleased 
to say that we have an excellent relationship and it is based 
on we move forward and during this year will ensure that our 
troops are withdrawn on schedule by the President's timetable 
and that in their place will remain a very strong, healthy 
relationship between the United States and Iraq, one that has 
moved from a military face to a political face, and a 
relationship that it is our hope will serve our interests for 
decades to come.
    Today, we have a security agreement that is utterly crucial 
in setting out the parameters for our military relationship. We 
also have something called a strategic framework agreement 
which lays out all the elements of a relationship that we 
intend to have with Iraq for decades to come. Mr. Chairman, I 
would say to you that this year is going to be absolutely 
crucial.
    It is absolutely crucial that those of us who serve in Iraq 
and talk to you and to members of your committee and make very 
clear how we see the situation on the ground. I have been very 
pleased to see so many Members of Congress come out to Iraq. I 
hope many more will come out. Any time I am in Washington I 
look forward to meeting with you and any members of the 
committee who would like to meet. Thank you very much.
    [The prepared statement of Ambassador Hill follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Chairman Berman. Well, thank you, Ambassador Hill. I will 
yield myself 5 minutes to start the questioning. According to 
Ken Pollack in the most recent issue of The National Interest, 
over the past year ``Maliki has been deploying more of Iraq's 
nascent military power to the north and goading the Army into 
regular provocations with the Kurdish militia, the Peshmurga.''
    My questions are: Is Pollack's assertion accurate, and, a 
little more detail--you touched on this--but what are the 
prospects that there will be a serious outbreak of hostilities 
between Arabs and Kurds? Are growing Kurdish Arab tensions the 
biggest threat to Iraqi stability? We learned this morning of 
another mass casualty bombing in a Kurdish village just outside 
Mosul and a number of casualties.
    In addition, could you provide details of General Odierno's 
proposal to deploy United States forces in northern Iraq in 
order to build confidence between the government and the 
Kurdish security forces. How many U.S. troops would be 
involved? How many Kurdish Peshmurga and Iraqi security forces 
would be involved? What are the criteria for success of this 
plan? What would determine that such deployments are no longer 
needed?
    Ambassador Hill. Mr. Chairman, the internal issue of the 
relationship between the Kurdish regional government and the 
Iraqi Arabs is of course a very crucial element of the cohesion 
of Iraq. I am pleased to say that it is an issue that is 
receiving a great deal of attention, both by our military, but 
also by the Embassy. We also have a U.N. mission there, UNAMI, 
that is very active in this area.
    The issue is, like many issues in Iraq, complex, but there 
are, for starters, a number of territorial questions and it 
goes along the border, which is called the disputed internal 
boundary areas, and there are some 15 features along that 
border in which there are disputes. Some are less disputed than 
others. Indeed, sometimes you will hear, like in Makhmur one 
side said no, it is not disputed, the other said it is.
    Certainly in Kirkuk this is probably the most sensitive of 
the areas because Kirkuk is probably the most economically 
developed and it is also has probably got the greatest economic 
potential in terms of oil reserves. So these 15 features along 
this border need to be resolved. I want to stress this is an 
internal border, it is not an external border.
    One hopes that as these issues are resolved, that is, to 
determine which is in the Kurdish regional government area and 
which is in the rest of Iraq, tensions will subside, economic 
activities will get going and you will have less of a, it will 
calm things down such that the actual internal boundary will be 
less important.
    One of the first issues, and our military has really taken 
this issue up, is to try to make sure you don't have any 
accidental contact or conflict between Iraqi forces and the 
Peshmurga, and so General Odierno has been working with the 
Baghdad government and the government in Irbil on some ideas to 
do some joint patrolling. Now, this is a work in progress.
    He had some discussions in Irbil Saturday on this, he had 
discussions previously in Baghdad in which the Kurdish Interior 
Minister and Defense Minister came to Baghdad, last Saturday he 
had the National Defense Minister and Interior Minister come up 
to Irbil.
    The concept is essentially to have patrolling that includes 
setting up some checkpoints which are to be determined where 
those checkpoints are to be, but also to have some mobile 
checkpoints involving three elements: United States, Peshmurga 
and the Iraqi army.
    Chairman Berman. Let me just interject because I only have 
about 20 seconds left.
    Ambassador Hill. Yes.
    Chairman Berman. Is this assertion regarding purposeful 
deployments in the nature of provocations by the Iraqi army to 
the north?
    Ambassador Hill. Yes. I haven't read Dr. Pollack's article. 
I think what he is referring to is the deployment of the Iraqi 
12th Infantry Division, which, in the minds of some experts, 
was provocative in that it had fewer Kurdish members and less 
Kurdish leadership in the Iraqi army in that division. I think 
it certainly was a problem a couple of months ago.
    Chairman Berman. Ambassador, I hate to do this to you, and 
I am interrupting the answer to my own question, but my time 
has expired and so I have got to----
    Ambassador Hill. Okay. I just want to emphasize that I 
believe those issues have stabilized, but we need to get the 
political issue moving. The two major features are Kirkuk and 
Mosul. If we can find solutions in those areas, and when I say 
Mosul I mean Nineveh more broadly, then I think we can work 
through the other 15. We are working very closely with the U.N. 
and we have someone from the U.S. Embassy full-time on this job 
assigned to Kirkuk.
    Chairman Berman. My time is more than expired and I now 
recognize the gentleman from California, Mr. Rohrabacher, for 5 
minutes.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman. We lost 
4,323 American lives so far in this endeavor. Again, let me 
repeat what I said in my 1-minute opening statement, and that 
is it is somewhat dismaying for Americans to see what appears 
to be a total lack of gratitude on the part of the Iraqi people 
for the sacrifice that has been made. I have yet to hear Iraqis 
who I have been in direct contact with without prodding say 
thank you to America and express their gratitude.
    The Kurds, on the other hand, seem to be very appreciative 
of the efforts that we have made. As American troops were 
withdrawn from the cities recently in Iraq, there were 
celebrations all over Iraq except in the Kurdish areas.
    The Kurds have expressed to me that they believe that those 
celebrations, the withdrawal of American troops was, frankly, a 
terrible sign of disrespect for the American sacrifice that we 
have made for the people of Iraq, and so it was a sign of, you 
know, seeing those people out celebrating our withdrawal 
doesn't sit well with some of us who know how much suffering we 
have had here among our own people.
    People losing their sons and daughters and having their 
faces blown off and have these people not being grateful for 
it, it is just, it is heart wrenching for the American people 
to understand, and then to find out that the Communist Chinese 
are ending up with oil deals that perhaps should be going to 
American companies or just perhaps maybe not to a country like 
Communist China.
    So let us get to some specific questions, Mr. Ambassador. I 
echo the alarm that our chairman expressed about possible moves 
against the Kurds. We need to make sure that we send a very 
strong signal that it is unacceptable. What stronger signal 
could we send but to join 12 other nations who have a consulate 
in Irbil? I will be proposing legislation soon that will 
require us to have a consulate in Irbil. What is your reaction 
to the idea of joining the other nations that have established 
such consulates?
    Ambassador Hill. With regard to the issue of a consulate, 
the U.S., first of all, has probably the largest mission in 
Irbil of any of the countries you mentioned. Ours is a 
provincial reconstruction team led by a very senior diplomat 
there, Andy Snow, with many years of experience in the Foreign 
Service. In short, we have a very strong diplomatic presence.
    I think the issue of whether or when to have a consulate is 
something that the State Department will need to make a 
decision on. It goes beyond my capacity to decide. I want to 
assure you, though, that we are in very close contact with the 
Kurds. In fact, I just spent 36 hours over the past weekend 
just Saturday and Sunday with President Barzani up in his home 
village in Barzan, so we are in very close contact with him.
    I also want to assure you that we look to reduce tensions 
and we look to make sure that everyone understand what the 
rules of the road are. We are pleased, actually, that we have a 
Prime Minister in Baghdad who has actually gone up to Kurdistan 
in recent weeks to meet with President Barzani and meet with 
the other leadership.
    Mr. Rohrabacher. Well, thank you very much. Let me just 
note that if we want to make it real for those people, we have 
a chance now. If we instead of hedging make it an official 
consulate, if we have a presence in the Kurdish town in this 
area, certainly making it real at this point by making it an 
official consulate would be a great message, I think, that 
would deter people who have other plans in Iraq.
    Let me say the other thing that is disturbing to me is of 
course that we have seen this attack on Camp Ashrah, and I 
would hope that you take back with you to the Iraqi Government 
that there are senior members of the United States Congress 
that are watching what they are doing, and holding, going in 
and taking prisoners from that camp in order to do the Iranian 
Mullahs a favor is not acceptable. Their human rights are being 
violated, as far as what we can see, and we should put an 
emphasis on that as well.
    Ambassador Hill. I will carry that message.
    Mr. Rohrabacher. All right.
    Mr. Ackerman [presiding]. Thank the gentleman.
    Mr. Rohrabacher. I guess that is the end of my questions. 
Thank you.
    Mr. Ackerman. Yield 5 minutes to myself. Ambassador, thank 
you very much for your testimony and for your service again. 
Could you tell us what role Iran is playing inside of Iraq?
    Ambassador Hill. Iran has a longstanding relationship with 
Iraq. There are obviously many Shia in Iraq and Shia in Iran 
who feel very close kinship. There is a cultural relationship, 
a religious relationship, a commercial relationship, but, 
frankly, sir, there is also a very malevolent relationship. We 
see continued signs of Iranian weaponry finding their ways into 
various insurgent groups in Iraq.
    Indeed, one of the Iranian weapons I found in my front yard 
at my house when we were rocketed a couple of months ago, 107 
millimeter rockets, which were Iranian made. So there is no 
question that Iran and Iraq should have a longstanding 
relationship, they are, after all, neighbors, but I think Iran 
needs to do a much better job of respecting Iraq's sovereignty 
and they should start by ceasing to provide weaponry to various 
extremist groups in Iraq.
    Mr. Ackerman. Thank you. It seems a lot of time has gone by 
where the Iraqis have been talking about, or not talking about, 
the hydrocarbon law. Is anything happening? If they can't come 
to a basic conclusion about that, which is, I would presume, an 
important, if not the important, component of what would be 
their economy, how are they going to be able to run a country?
    Ambassador Hill. Yes. I believe the hydrocarbon law is long 
overdue. We have urged that they pass this legislation for many 
years now. There are clearly some differences. Some of the 
differences are between the Kurdish Government and the Kurdish 
Government authorities in Irbil and the Iraqi Government 
authorities in Baghdad, but I think the issue goes well beyond 
that.
    There are a lot of differences between people in the 
Council of Representatives, that is their Parliament from the 
south, and people in the central part of the country. It is a 
very complex piece of legislation. It actually involves several 
pieces of legislation.
    The question is can Iraq make progress on its oil sector in 
the absence of getting this very tricky piece of legislation 
through their parliament? The answer to that is yes, they can 
do a lot more in terms of getting out these fields through 
international bids, and they have begun to do so.
    They will need a hydrocarbons law. It will help set out the 
relationship between what the provincial authorities, what 
their requirements are in terms of paying for infrastructure 
and issues like that. It will also set out the bureaucratics of 
what kind of national oil company, if any, that they have. They 
have not been able to reach an agreement. My prediction to you 
is that they will not do so prior to the January elections.
    At the same time, I do believe that they will move ahead 
with other international oil companies, as they have started to 
do, in leasing out fields. I want to emphasize the importance 
of that because Iraq has not done that for decades and decades. 
Well before Saddam Hussein there has been this predilection in 
the country not to give out oil fields to foreign entities.
    They have begun to do so and it is a very healthy 
development. I think it could signal an end, or the beginning 
of an end, to Iraq's self-isolation with regard to its economy. 
So it is a delicate political issue but they have begun to do 
so. If they are able to do so, they will be able to export far 
more oil and they will be able to pay their own bills.
    Mr. Ackerman. Excuse me, Ambassador. You have now said when 
and if in the same sentence. Do they have the ability to do 
that?
    Ambassador Hill. Ability to? I am sorry.
    Mr. Ackerman. To solve this problem.
    Ambassador Hill. Yes.
    Mr. Ackerman. I mean, they are besieged with problems in 
trying to run a country. If they don't, how do they solve 
Kirkuk? How do they solve all their other problems?
    Ambassador Hill. They put up six oil fields and two gas 
fields for bid in June. One of the fields was given out to a 
British entity, British Petroleum. Those negotiations to 
complete that deal are ongoing, and we believe they will be 
successful.
    The others, we believe, are also under discussion so that 
by this fall, and I am mentioning this because you asked about 
the hydrocarbon law which I don't think as a realistic matter 
is going to get done this fall, I do believe they are going to 
get foreign investment in their oil fields. They have a lot of 
work to do on infrastructure, which has fallen down.
    They have pipeline problems, other things. I think it is 
very encouraging that they are doing this because, Mr. 
Chairman, our desire is to see that Iraq starts paying its own 
bills.
    Mr. Ackerman. Thank you. Mr. Poe.
    Mr. Poe. Thank you, Mr. Chairman. Thanks for being here, 
Mr. Ambassador. I want to follow up on my opening statement. I 
am concerned about the Iranian Government. The Iranian 
Government wants to develop nuclear weapons, they are involved 
in Iraq directly and indirectly, they cause mischief, they kill 
people, and now they are involved in Camp Ashraf with influence 
on the Iraqi Government.
    Apparently the United States knew that there was trouble in 
Camp Ashraf, that there might be some type of problem, and, of 
course, there was a problem with the invasion of the Iraqi 
security forces killing 11 people, capturing 36 others, being 
ordered by a Judge to release these people. They are still in 
captivity, and we have the legal and moral obligation, right or 
wrong, we are in that situation to protect Camp Ashraf.
    We are on our way out. How do we know that this camp with 
these Iranian dissidents will be secure? That their lives are 
not in jeopardy? Is the fourth Geneva Convention going to use 
this as a designated persons and make sure that we, as the 
United States, push to protect these individuals?
    My personal opinion is our quarrel is not with Iranians, 
either in Iran or Iraq, our quarrel is with the government, and 
so what are we doing specifically to make sure that the people 
of Camp Ashraf are safe when we leave town?
    Ambassador Hill. Well, first of all, we sought and received 
written assurances from the Government of Iraq that it will 
treat the Mujahedin-e-Khalq humanely. It will not forcibly 
transfer them to any other country.
    Mr. Poe. Excuse me. Just to clarify the question and 
answer, was this before or after the security forces came into 
Camp Ashraf that we got this assurance?
    Ambassador Hill. This was before because the U.N. mandate 
for us to be responsible for this camp ended at the end of 
2008. After 2008, that is, starting January 1 this year, it is 
the sovereign and sole responsibility of the Iraqi Government. 
Because of that, we sought from them written assurances they 
would treat them humanely and that they would not forcibly 
repatriate them where they could be tortured or persecuted 
based on their religious or political belief.
    Mr. Poe. It doesn't appear that they have been treated 
humanely if 11 of them were murdered and 36 others were 
arrested.
    Ambassador Hill. Well, on July 28, Iraqi forces went in to 
try to set up a police station. They regarded that as an 
exercise of their sovereignty because Ashraf is in Iraq.
    Mr. Poe. Did we know about that before it happened?
    Ambassador Hill. I understand that they told us that, yes, 
they were going to do this.
    Mr. Poe. Okay.
    Ambassador Hill. Yes. As you are well aware, the operation 
of setting up this police station resulted in violence and the 
deaths of several of the residents. The United States gave 
immediate medical attention to the injured and provided medical 
supplies and expertise to the clinic there. We also evacuated 
most seriously injured to U.S. medical facilities.
    We have continued, the U.S. has continued to monitor the 
treatment of the 36 Mujahedin-e-Khalq members who were arrested 
on charges relating to the rioting and illegal residence in 
Iraq, so we have continued to monitor them and we have 
continuously and clearly told the Iraqi Government of our 
interest in their treatment.
    I can assure you, sir, that we are continuing to be in 
touch with Iraqi Government and urge that they live up to their 
written assurances to us with respect to the treatment of 
individuals, and especially to the issue of repatriation 
because it is repatriation that I think we have to make sure 
does not happen.
    Mr. Poe. Let me ask you a question in the limited time I 
have left. Let us just cut to the chase. When we leave, what is 
your personal opinion about the safety of the people in Camp 
Ashraf?
    Ambassador Hill. Well, we have made it very clear to the 
Iraqi Government, I think this committee, in fact, has made it 
very clear as well, that we are interested in the well-being of 
these people, we are interested in the preservation of their 
human rights, we are interested in the fact that they should 
not be forcibly repatriated to Iran. It is therefore my view 
that the Iraqi Government respects our concerns in this regard 
and will work with us on those.
    That said, they do want to exercise sovereignty over their 
own territory, but that sovereignty should not come at the 
expense of human rights or repatriation. So, Mr. Congressman, I 
can assure you we will continue to be very vigilant on this 
matter.
    Mr. Poe. Thank you, Mr. Chairman.
    Mr. Ackerman. Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman. Welcome again, 
Ambassador Hill. Let me ask you, do you foresee any 
circumstances in which the Iraqi Government will ask the United 
States and ask the President of the United States to review his 
scheduled deployment of troops out of Iraq? Do you foresee any 
circumstances?
    Ambassador Hill. I do not.
    Mr. Scott. Do you see that there may be a problem with 
Prime Minister Maliki putting on the ballot in the upcoming 
elections a referendum on that precise question?
    Ambassador Hill. I think a referendum would be more 
possible if there were a perception that we were not living up 
to the security agreement. We are living up to the security 
agreement. Our withdrawal of U.S. forces from the cities on 
June 30 was widely understood in Iraq as a clear example that 
the United States lives up to its commitments.
    Based on that, I do not expect to see a referendum, but I 
want to make very clear, whether they have a referendum is 
entirely their decision. It is entirely theirs. Our focus is 
not the referendum. That is their focus. Our focus is on making 
sure the U.S. lives up to all of its obligations under the 
security agreement, and we are doing so.
    Mr. Scott. Let me stay on that for a moment. Now, Prime 
Minister Maliki has said that this is what he wants to do and 
that this is what he is going to do, to hold a referendum on 
the United States' status of force agreement on January 16, the 
very same day that the national elections will be held. Now, 
you have stated very clearly that it is not our intention, this 
is not what we want to do, but if in fact as it looks that that 
will be done, what impact would that have on U.S. policy?
    Ambassador Hill. Well, again, it is their sovereign 
decision whether to do it. It is contained, a referendum is 
envisioned in the security agreement. Our concern is to make 
sure we live up to our provisions of the security agreement. It 
is not for us to be giving advice to the Iraqis with respect to 
the referendum, so I am not sure I want to get into the 
hypothetical question of if they have a referendum, and then 
depending on what the referendum reveals, then what would we 
do?
    It is too many hypotheticals. I can tell you, though, that 
our focus is on the complete fulfillment of our obligations and 
we are doing so, and we are widely understood by the Iraqi 
people as doing so, and I think that is what we should continue 
to focus on.
    Mr. Scott. Are you worried, Ambassador Hill, that 
conditions will so deteriorate that civil war could very well 
break out in Iraq?
    Ambassador Hill. Well, there is no question the security 
situation remains a challenge, but I want to stress that the 
U.S. military is the world's greatest fighting force and it is 
also the world's greatest training force. We have done a lot of 
work with the Iraqi forces, and so we have a lot of confidence 
in their ability to manage a difficult environment.
    I would say that one of the reasons why some of these 
sectarian attacks on Shia mosques, for example, on Shia mosque-
goers, in Shia neighborhoods and this sort of thing in an 
effort to try to stimulate some sort of intersectarian 
violence, one of the reasons it has not happened, that 
intersectarian violence, is that the perception is that the 
Iraqi security forces, unlike a few years ago, the perception 
is that they play it fair and they do their jobs, so I am 
confident that our forces have done a tremendous job of 
training those forces so that they remain disciplined and are 
not part of the violence as they were alleged to be some years 
ago.
    So I think that has been very important and I think we need 
to stay at it. As for, you know, the level of violence, it is 
obviously, it is a tough proposition to stop all of this 
violence, yet, I think the Iraqi military, who is really very 
much in the hot seat now, they are really in these areas, in 
these urban areas, their checkpoints are being attacked, things 
like that, they are going to have to look at their tactics and 
see what needs to be done.
    Mr. Scott. Let me just quickly. My time is about gone, but 
how do you describe the relationship between President Talibani 
and Prime Minister Maliki? The tensions appear to be high, they 
are criticizing one another. What is your take on that 
relationship?
    Mr. Ackerman. You can answer that if you are able to do so 
in 15 seconds.
    Ambassador Hill. Based on my observation, their 
relationship is very businesslike and productive.
    Mr. Scott. Thank you, Mr. Chairman.
    Mr. Ackerman. Thank you. Mr. Costa.
    Mr. Costa. Thank you very much. As I said in my opening 
comment, I am interested in terms of how well this effort to 
create democratic institutions where none have existed 
historically. Now, the de-Baathification effort was a step in 
that direction. Could you give us greater descriptive in where 
you see the milestones here in the next year for a continuing 
effort to make this democratic form of government successful?
    Ambassador Hill. I think Iraqis, as I mentioned earlier on, 
have really embraced politics. What you are seeing now in the 
5--or 4 now--months leading up to the January elections is many 
of the Iraqi politicians moving around and trying to build 
coalitions. We are pleased to see that these coalitions that 
they are trying to build are often cross-sectarian. That is, a 
Shia party may look to see if it can get in coalition with a 
party that has largely Scion in their----
    Mr. Costa. So the cross-sectarian lines you think are 
actually taking place?
    Ambassador Hill. So it is actually taking place. Now, it 
doesn't mean that that is the only phenomenon going on. For 
example, there has been an effort to have a Pan-Shia party. 
This is something the Iranians have wanted to see, a Pan-Shia 
party, yet, many Iraqis understand that you cannot run this 
country, you cannot run the country with only a Shia coalition 
so you----
    Mr. Costa. And the role that the Kurdish are playing in 
these parties?
    Ambassador Hill. I think the Kurdish parties will very much 
play a role in the January election. I think they have not 
endorsed any particular coalition yet. President Barzani in 
Irbil has hosted many political leaders up from Baghdad who are 
looking to see if he would join them in a coalition. So I think 
the Kurds will have a big opportunity, really, to cast their 
vote with a coalition, and probably make it the winning 
coalition. So that is why many people are interested in getting 
a strong Kurdish party.
    Mr. Costa. So they are trying to play that balancing role.
    Ambassador Hill. Yes.
    Mr. Costa. The last time we were in the Kurdish area there 
was a lot of economic activity taking place. Is that 
continuing?
    Ambassador Hill. Yes. If you go to Irbil, you will see----
    Mr. Costa. The airport is completed?
    Ambassador Hill. The airport is expected to be completed in 
a matter of months. Frankly, when you drive by it, it looks 
completed but I think there are a lot of technical issues, so I 
think the expectation is it will be completed by the end of the 
year. There is a lot of Turkish investment in Irbil and also 
Lebanese investment, but it is very politically significant 
that the Turkish private sector companies are very much 
invested there.
    Mr. Costa. It seems to me that one of the reflections of 
success of that activity that you are describing is whether or 
not institutions that any country depends upon growing and 
being able to function well, like educational institutions. We 
had an exchange from University of Anbar out in California 
earlier this year with my university. Are the universities, are 
the schools, are those kinds of institutions demonstrating 
their own ability to function as they are supposed to?
    Ambassador Hill. I have been very pleased to see the 
development of a lot of partnerships with U.S. universities. I 
think at last count I saw some 13 partnerships, including in 
California, but also South Carolina and some others. I think it 
is also significant that Prime Minister Maliki has set out as a 
goal of having 10,000 Iraqi students come and study in the U.S.
    You know, the Iraqis are historically very proud of their 
educational institutions, and yet these were quite laid to 
waste during the Saddam Hussein era. I recently hosted in my 
home the Fulbright students who went this summer, some 25 Iraqi 
scholars studying in the United States, and I also invited 
previous Fulbright students from before the Saddam Hussein era, 
including a woman, the first, 1952----
    Mr. Costa. My time is almost up.
    Ambassador Hill. Yes.
    Mr. Costa. Another area related to this. During the height 
of the war, the diaspora that took place among those who were 
professionals, and educated and that group to Jordan and other 
places was significant. Are folks starting to come back?
    Ambassador Hill. I would say the returns of refugees in 
neighboring countries has been disappointing. I would say 
equally disappointing is that I believe the Iraqi Government 
needs to make a greater effort in this regard. I think they 
need to make a greater effort because many of the people you 
describe are indeed people that they need back in the country.
    They are the educated classes in some cases. So I think one 
of our tasks in Baghdad is to push this issue further up on 
their list of priorities, to be very frank with you.
    Mr. Ackerman. Thank you. Mr. McMahon.
    Mr. McMahon. Thank you, Mr. Chairman. Ambassador Hill, 
obviously to all of us the relationship between or the 
influence that Iran has in Iraq is of great concern for Iraq, 
as well as for our allies, like Israel, in the area. How much 
of an influence does Iran have over Prime Minister Maliki 
personally?
    As you know, there was a report where, citing an Iraqi 
intelligence official as a source, David Ignatius wrote on 
August 25 that the Prime Minister uses an Iranian jet with an 
Iranian crew for his official travel. Is that claim accurate, 
and should we be concerned?
    Ambassador Hill. Yes. I think with regard to the jet my 
understanding is it is accurate. I do not, however, subscribe 
to the view that he is acting at the behest of the Iranians. I 
think he is very much an Iraqi Prime Minister. I want to 
stress, though, that these are very political times there. All 
times there are political, but we are coming up against an 
election, and, you know, he has his supporters, but he 
certainly has his detractors. In our dealings with him he is 
very much an Iraqi Prime Minister.
    Mr. McMahon. With regard to the elections, and we all know 
all politics is local, or it is a rule we are never allowed to 
forget, with regard to those elections that are coming up in 
January, what is the lay of the land of the local parties? 
Which ones are more aligned to Iran? Which ones are more 
opposed? Can you give us an overview of that?
    Ambassador Hill. Yes. First of all, parties often kind of 
come together for elections. Parties, there are a few that are 
more longstanding than others, but there are a lot of smaller 
parties that come together and then will join with other 
parties. In terms of, you know, Iranian influence is mainly 
felt in the south of the country where the population is far 
more Shia.
    I want to stress one thing that I think people should bear 
in mind which is that when Saddam Hussein fought an 8-year war 
against Iran, he fought it with an army that was 80 percent 
Shia, so I don't want anyone to be left with the impression 
that because Iraq has a large Shia population that they are 
somehow, you know, Iranian surrogates. They are very much 
Iraqis first. Iraq is a country that I think people have a very 
strong national identify of being Iraqi.
    So to be sure, there are some parties that are thought to 
be more under Iran's influence. You know, I think most analysts 
would point to the Sadrists as an example of that. If you asked 
Sadrists, they would not agree with that. So it is an ongoing 
issue. Everyone has an opinion about it.
    I think what is important is that the Shia in Iraq need to 
believe that the rest of the Middle East, which is exclusively 
Scion-led governments, that those Scion-led governments are 
prepared to make room for a government that is Shia-led. I 
mean, I don't want to say Shia-dominated, but Shia-led.
    I think to some extent we do need more of a regional 
approach to this because what we don't want is a situation 
where Scion countries will feel they need to back Scion parties 
in Iraq because they are worried that the Iranians are backing 
Shia parties. I think that would be very dangerous, and I do 
know that that is something people in Iraq worry about, so I 
think it is very important.
    Turkey has been very active in Iraq and they have decided 
to be active in a positive way. They have decided to go in 
there with investments, see what they can do to help Iraq. I 
hope that other Scion countries will come to the view that it 
is better to be there helping Iraq and not just leave the place 
to Iran.
    Mr. McMahon. Thank you. With the little time I have left, 
regarding Turkey and its recent attempts at rapprochement with 
the Kurds that have been received by both applause and 
skepticism by the Kurdish communities in Turkey, how are 
Turkey's efforts to ease the decades-old tension received in 
northern Iraq? Do you think Turkey's efforts will aid in its 
battle against the PKK terrorist group which has killed, as you 
know, over 30,000 civilians since the PKK took up arms?
    Ambassador Hill. I think we welcome Turkey's interest in 
forging a good relationship with Iraq and, in particular, its 
interest in a dialogue with Iraq's Kurds. Turkish businesses 
have already made their views clear because when you go to 
Irbil these days you see construction project after 
construction project that is from various Turkish companies, so 
I think there is a lot of very positive developments there.
    You know, Turkey still has a big concern about the PKK. 
There is no question. There is a concern that the PKK uses 
various sort of places in Iraq to launch attacks in Turkey and 
that is an issue of continued concern and one that we are in 
touch with the Turks on, but I would say Turkey has, you know, 
made an important decision to work with Iraq and to work with 
Kurds, very specifically.
    Mr. McMahon. Thank you. Thank you, Mr. Chairman.
    Mr. Ackerman. Thank you. Mr. Faleomavaega.
    Mr. Faleomavaega. Thank you, Mr. Chairman. Again, Mr. 
Ambassador, welcome. Always a pleasure working with you as I 
have had in the past years. Mr. Ambassador, our history and the 
concerns that I have in terms of sometimes there are so many 
inconsistencies in our policies and that we have already 
expended over $900 billion in waging war against Saddam Hussein 
at the expense of some 4,300 of our finest American soldiers 
who lost their lives, not to mention, even thousands more 
wounded and maimed for life.
    I guess a little bit in terms of my colleague from 
California, Mr. Rohrabacher, had said earlier, if there is any 
real sense of appreciation the people of Iraq for the 
sacrifices that our country have had to make, especially, in my 
humble opinion, that our first priority in really wanting to 
wage war against Saddam Hussein was to get rid of nuclear 
weapons and not necessarily to democratize the good people 
there in Iran.
    Now, after us doing all the dirty work the past 6 years, we 
have got 30 of the biggest corporations in the world bidding 
for the Iraqi oil, and I wonder if there is any agreement 
somewhere that maybe as compensation or a little token of 
appreciation or something, that the Government of Iraq could 
monetarily, maybe, reimburse or recompensate the losses and the 
tremendous amount of resources that we have had to spend to 
give them democracy.
    Is there anywhere where to suggest that now they have the 
third world largest oil reserves in the world, is there 
anywhere that maybe some way that as a token of their 
appreciation for our sacrifices that they could at least maybe 
a little payment of appreciation of what we have done?
    Ambassador Hill. Well, first of all, Mr. Congressman, I 
want to stress that I have been in many, many, many 
conversations with Iraqis who have expressed their gratitude 
for our sacrifice. I really want to stress that. I mean, I hear 
that every day from Iraqis. I share the view that, frankly, I 
would like to hear it more, but I do hear it every day and it 
is really quite gratifying to hear it.
    I have heard it expressed in quite emotional terms from 
Iraqis about how our sacrifice has made them free, so I want to 
stress that that goes on. That is a daily occurrence in my life 
there. With regard to the issue of contracts, I think the best 
thing we can do for our companies, frankly, is to ensure that 
the Iraqis play by the rules and have a transparent system.
    I was very pleased with the way they handled the oil 
bidding in June. I mean, it was at the Al-Rasheed Hotel, there 
was a big glass jar. It looked like something out of a state 
lottery or something as they pulled bids from it, and really, I 
think, were very transparent. They did it on national TV and 
live. This was not some back room deal or some deal where you 
go into someone's tent and come out with an oil concession. 
This was very much open.
    I am sure that as they go forward and if they continue this 
type of approach, our companies will do fine in this. It was a 
British company that won the contract, but I am sure United 
States companies will do fine. I also take note of the fact 
that our companies are very interested in working in Iraq. I 
believe that Iraq holds the promise for our companies of strong 
exports to Iraq.
    They need a lot of infrastructure sorts of things, our 
companies can build well, so I think we are going to do just 
fine there.
    Mr. Faleomavaega. It is my understanding that out of a 
population of 23 million people, over 1 million now are 
refugees in other countries, like Jordan, Egypt, and the other 
million, I believe, are also homeless within Iraq. Sixty 
percent of the population is Shiite, 20 percent is Sunnis, for 
which Saddam Hussein was a Sunni, and one of the big ironies 
that I find interesting in history is the fact that we 
supported Saddam Hussein during the 8-year war that he had with 
Iran because we hated the Ayatollah more than we did Saddam 
Hussein.
    Who do we appoint as a special envoy to Saddam Hussein at 
the time? A fellow named Donald Rumsfeld. Talk about 
contradictions of history and what we are dealing with here. I 
just wanted to ask, I appreciate the fact that you are sharing 
this, that they do appreciate, but, boy, I am telling you, I am 
not hearing it in our media, the American people have not heard 
it as often, maybe it should in some way or somehow.
    I for one, and I am sure there is not one member here that 
does not have relatives and friends who have served and died in 
the war there, but I really, really would deeply appreciate if 
you can convey that message. How about a little more public 
acknowledgement of what we have sacrificed for? Thank you, Mr. 
Ambassador.
    Ambassador Hill. Just a postscript on that. I would like to 
stress that Prime Minister Maliki, when he came here, he asked 
to go to Arlington Cemetery, it was his idea to do that, and 
pay respect to those who have fallen. Mr. Congressman, believe 
me, I hear you loud and clear on that issue.
    Mr. Ackerman. Thank you. Ms. Jackson Lee.
    Ms. Jackson Lee. Ambassador, let me thank you very much for 
a very long tenure of service. I don't think anyone can deny 
the commitment that you have had to the American people. We are 
most grateful. We are grateful to this President, and we are 
grateful to the Secretary of State for a new attitude on the 
issue of the face of America as it relates to foreign policy.
    That success, although short, has been shown by polling 
numbers in Europe on how Europeans, who are, many of them our 
allies, believe that we are handling our foreign policy and the 
attitudes that we have internationally. You are speaking to 
someone that you are obviously aware had no stomach for the 
Iraq war, not because I am a wimp, not because I don't believe 
in American values and don't support in totality the valor and 
the courage of our young men and women who are on the front 
lines.
    I think we who opposed the war got it right. We stood 
solidly linked with our soldiers and public servants, civil 
servants and others who were on the front lines. Many of us 
have visited Iraq, Afghanistan, Pakistan in places where our 
soldiers were. We never can equate our visits to the tough 
conditions that they live in. So here are my questions as it 
relates to where we are in Iraq.
    You are in the diplomatic arena. I assume that you are 
meeting constantly with the foreign policy representatives and 
head of state. I hope to be in Iraq over the next couple of 
weeks to assess for myself. My first question, quickly, is: Is 
Iraq maturing enough, is there sufficient maturity, to really 
handle their own business?
    Frankly, I want all of our troops out of Iraq, and I would 
say to you that they have been an enormous disappointment. You 
have to put a good face on it, but as far as I am concerned, 
they are complete failures. Why? They pushed us out. I am glad 
to be gone. Not enough of us are gone. They have done nothing 
but create havoc, tolerate bombers and spew venom on us.
    Now, I would like to add to my question on the Camp Ashraf, 
we note that there are 36 detainees who were arrested and being 
held after the raid. Where are they, and why are we just 
monitoring the situation? We need to do something about it. 
What has happened to the 1,000 women that have been attacked 
by, I am told, Iraqi nationals.
    There is no excuse for these individuals who are minding 
their own business, who are not threatening Iraq that have to 
be condemned and attacked. My own constituent has a person 
there, Mitra Surabi. So my question, if you can answer those 
three questions quickly. I am only giving you about 1 minute 
and 30 seconds. I understand that.
    I would ask unanimous consent to submit into the record 
report and legal opinion dated July 28 to 30, Mr. Chairman, 
2009, and a newspaper article from the Washington Times 
regarding the faith community that is sick and tired of the 
treatment of these individuals in the Ashraf camp. I ask 
unanimous consent.
    Mr. Ackerman. Without objection, both will be made part of 
the record.
    [Note: Only the Executive Summary of the report/legal 
opinion is reprinted here. The complete material is available 
in committee records.]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Ms. Jackson Lee. Mr. Ambassador?
    Ambassador Hill. First of all, I do believe Iraq is making 
progress such that the President's timetable for withdrawal of 
our troops, which was something that was supported by the 
previous administration when it drew up the security agreement, 
is absolutely achievable.
    By the end of August 2010, all of our combat troops will be 
out. By the end of December 2011, all of our troops, even the 
assisting troops who are assisting and training, will also be 
out. So we are holding to this timetable. We have worked very 
closely with Iraqis. We do believe their institutions can stand 
up. Iraq is a country that will have or has the economic 
potential and will have the economic means to run itself.
    We expect this to get done. With respect to Camp Ashraf, I 
don't have a lot to add to what my previous answer was except 
that we do monitor the situation closely. We monitor it for two 
commitments that we have seen and what we have had in writing 
from the Iraqi Government: 1) that they will respect the human 
rights of the camp residents; and 2) that they will not engage 
in any forced repatriations to Iran.
    We are also monitoring the treatment of the 36 individuals 
who were arrested for violence and how the Court cases against 
them will proceed. Thank you.
    Ms. Jackson Lee. Mr. Chairman, I close here. I just want to 
pose a question to you, Mr. Chairman. Whatever the protocol is, 
and I appreciate Ambassador Hill, it might be appropriate to 
have the Ambassador to the United States from Iraq. Obviously, 
what Ambassador Hill is saying is that this is Iraqi business.
    Well, I think they are handling their business poorly, and 
I would ask that if there are human rights violations this 
glaring, we need to have answers. I appreciate if we will have 
the opportunity to get them. I thank you, Mr. Chairman, and I 
yield back.
    Mr. Ackerman. Mr. Fortenberry.
    Mr. Fortenberry. Good morning, Ambassador Hill. Thank you 
for appearing. A question about the status of Iraqi religious 
minorities. What is the security situation for the Chaldean 
Right Christians, Yezidis, Mandeans, remnant Jewish 
populations? Then, beyond that, is there appropriate movement 
of them into representative governance positions and embrace of 
their rights within both central as well as provincial 
governance?
    Ambassador Hill. Mr. Congressman, I met with the leaders of 
the Christian minority soon after I arrived in Iraq. It is an 
issue of great interest to us. The purpose of meeting with them 
was to monitor precisely how they regard the situation on this. 
Obviously it has been a difficult time for Christian 
minorities, and you probably heard a few weeks ago that there 
were bombings of about seven churches mainly in the Baghdad 
area.
    My purpose in meeting with them was to assure or to find 
out how they feel their relations with the government are and 
whether the government is actively doing things to assist them. 
They have had police protection. Indeed, our forces have been 
helpful to them, in some cases actually giving them physical 
barriers as we have for many of our facilities.
    The religious leaders expressed concern, especially the 
Christian religious leaders, that many of their members have 
taken advantage of immigration programs to leave Iraq and to 
live in other countries, including in Western Europe, 
especially Western Europe. Many of these religious leaders were 
very concerned that this process is resulting in a reduction in 
their numbers.
    I was talking to a Catholic priest there who reported on 
the number of baptisms he was having, but also reported on the 
fact that many young adults were leaving. So it is a big 
concern there, and I think it is something that we need to be 
very much vigilant on and very active with. After the bombings 
I went and visited a Chaldean cardinal there to express my 
concerns to him.
    It was interesting. He didn't want me to go to the actual 
churches, which I was prepared to do, because he was concerned 
that we would be attracting attention and therefore possibly 
further violence. That is a sign, I think, of how pragmatic he 
is trying to be, but I think it is also a sign of the problems 
that really exist, that a visit of a U.S. Ambassador to a 
church could actually cause further violence against that 
church.
    So let me just say this is a major concern of mine, I know 
it is a major concern of some members, and I would be happy to 
be in touch with you by letter, if you like, as I have with 
other members, on this precise issue.
    Mr. Fortenberry. Well, I appreciate that sentiment. If we 
need to dialogue on how to perhaps more creatively assure 
protections for the communities, but also more fuller 
integration into civilian political structures if that is not 
occurring. I assume there is some movement in that regard. 
Would you address that as well?
    Ambassador Hill. Yes. First of all, local police tend to 
reflect the community sort of ethnic or religious composition 
of the local community, so I don't think it is a local police 
problem. There have been issues like that in the past. Those 
issues are getting better. There is no issue that is solved in 
Iraq. Everything is a sort of labor of love. You keep having to 
work on it.
    Certainly there are Christian communities in the Mosul area 
that continue to be at risk and need to be taken care of. 
Secondly, with regard to integration in government, I have met 
with government officials who, you know, are from these 
communities, talked to them about what the challenges are about 
getting more people from the communities here.
    I think the Iraqi Government, with respect to their civil 
service, they are open. There is no sort of religious test for 
getting to becoming a member of the government. One of the big 
issues, and they gave me quite a history lesson on this, was 
the actual formation of how the constitution was set up. You 
know, there are some people who wanted it to be an Islamic 
republic.
    These minorities were among the people who of course did 
not want to see that, so there was quite a push and pull on 
this issue. So I think it has worked out in terms of their 
constitutional protection. I think that is okay. I just want to 
emphasize that a lot of work and a lot of vigilance needs to be 
continued on this.
    Mr. Ackerman. Thank you. Mr. Ellison.
    Mr. Ellison. Thank you, Mr. Chairman. Mr. Ambassador, thank 
you for being here. Could you elaborate on the recent violence 
that we have seen in Iraq? As I read, over 100 people were 
killed, you know, around the weekend of September 8. I think in 
your comments you suggested it may be al-Qaeda inspired 
violence.
    I mean, I know that you may have limitations in terms of 
just, you know, disclosing all that you know, but can you tell 
us what you can tell us now in a little bit more detail about 
what is actually happening here and how it is connected to our 
withdrawal?
    Ambassador Hill. Well, these were what are called in the 
business high profile attacks. They were essentially truck 
bombs which were of a variety that many Americans remember from 
the Oklahoma City bombing, that is, agricultural products that 
came together to make a bomb. They took place simultaneously, 
or almost simultaneously, with two major ministries dealing 
with Iraq's outreach to the world, its foreign ministry and its 
finance ministry.
    As such, they carry all the hallmarks of a kind of classic 
al-Qaeda bomb or al-Qaeda action. Now, the Iraqi Government 
believes very strongly that there are strong Baathist elements 
here.
    Indeed, as we look at the relationships between al-Qaeda, 
which is essentially a very extremely radical religious 
approach, the notion that, you know, Iraq should be turned into 
a caliphate and this sort of thing, and we look at al-Qaeda 
versus Baathist, they are not, they don't have the same 
ideology at all, yet, I think there is concern that there has 
been some at times tactical hook up between the two, so the 
question is what is the Baathist element in this?
    I think it is fair to say the investigations are ongoing in 
that regard. The United States, of course we are available to 
the Iraqi Government to assist in the investigation. Indeed, we 
have had people at the crime scenes and we are doing all we can 
to assist. I am not prepared at this point to, you know, point 
the finger at any one group, obviously, because the 
investigation is ongoing.
    Mr. Ellison. Is there any reason to believe that, well, as 
I understand it, part of what has happened over the last 
several years is that the United States has helped to inject 
money into the Iraqi economy by essentially helping people in 
the Sunni community and tried to stabilize there, create some 
jobs and things like that, but as we withdraw and as people may 
either lose that source of revenue, or may feel abandoned, or 
may anticipate the loss of that, is there any sense that there 
might be a deeper chasm forming than simply, you know, because 
al-Qaeda, essentially, they got taken on by the uprising, the 
awakening movement.
    Ambassador Hill. The awakening movement where a lot of 
Sunni militias who essentially switched sides, that is very 
important, one of the elements of that Sons of Iraq program of 
course has been to integrate these people into ministries, and 
that has been ongoing and something we track very carefully 
because we want to make sure that the payrolls are met. In our 
view, that is a program that is going well.
    I think it is important to emphasize that it is true the 
United States has injected a lot of cash, a lot of money into 
Iraq, but is also true that Iraq does have the means to deal 
with its future. You know, no one likes to hear about just an 
oil-based economy, you like to have a more mixed economy, but 
they have a lot of possibility for----
    Mr. Ellison. Forgive me, Mr. Ambassador, but, you know, I 
guess if your reality is today that you have got to feed a 
certain number of people today and then there is the 
possibility of oil revenues in the future, you may choose to do 
what you need to do today, and so I guess what I am wondering 
is does this violence represent a sort of breaking away of, you 
know, the commitment that I mean the awakening movement 
represented in its coming together with the Iraqi Government--
--
    Ambassador Hill. I think the violence represents an effort 
to undermine Iraqi authorities, to undermine them at a time 
when it is widely understood that United States forces are 
beginning a departure.
    Mr. Ellison. Thank you.
    Ambassador Hill. I think what is important is that the 
Iraqi authorities and the Iraqi people have understood that 
they cannot allow them to get away with this.
    Mr. Ellison. Appreciate that.
    Mr. Ackerman. Thank you. Ms. Lee.
    Ms. Lee. Thank you very much. Good morning, Mr. Ambassador. 
Good to see you again. Congratulations. Thank you for your 
service. Let me ask you a couple of things. I probably have a 
different point of view than most members on this committee. Of 
course I oppose the war, but also, I oppose the authorization 
to use force in Afghanistan.
    I see what is happening now as it relates to Afghanistan, 
and I think we all are beginning to see that this blank check 
has got to be looked at in a different way. Unfortunately, I 
hope, well, I don't want to see Afghanistan go the same 
direction as Iraq, but I am not sure that that can happen. I 
have a concern about several things.
    One is, yes, Iraq has the means to deal with their future, 
their economic development, but I have to just say we bombed 
the heck out of that country, first of all, and so I believe we 
have an obligation to help rebuild and reconstruct. Again, I 
did not support the bombing, and the invasion and occupation, 
but once it occurred, I believe that we do have to make sure 
the country becomes whole.
    Secondly, I wanted to ask you about the refugees. How many 
refugees have left Iraq? How many are back? Do we know? How 
many civilians were killed? In fact, are there any underlying 
issues that we need to know about? You say the Iraqis are very 
happy that we are there, but after Abu Ghraib and after the 
torture, after the killing of the civilians and the refugee 
crisis, I just have to wonder and be concerned about any 
lingering affects of all of that, and, in fact, if we are 
really sticking to our timetable in getting out as it relates 
to the establishment of permanent military bases.
    We want to make sure that not only we don't establish 
permanent bases there and have a permanent military presence, 
but also that these contractors that are being used as security 
forces, the private contractors, once we leave, in terms of our 
military operation, will they now become the new military 
forces for the United States Government even though they are 
private contractors?
    Ambassador Hill. Well, I want to make very clear that we 
are living up fully to our obligations in the security 
agreement, that is, we are not going to try to get around that, 
we are not going to try to, you know, privatize the Army in 
some way. We live up to the letter and the spirit of the 
security agreement, and so the timetable we have for departure 
has been set out very clearly and I know that our military is 
working directly with that timetable.
    Ms. Lee. Let me just say, though, it is my understanding 
that the private security forces, we are looking at maybe $1 
billion for contracts for these private companies.
    Ambassador Hill. Well, there are various private security 
contractors for various purposes. For example, at the Embassy 
we have a number of private security contracts in order to, you 
know, protect us. Now, we have our own security people who 
oversee all these. In fact, every time I go from the Embassy to 
a ministry I have a security detail which is led by State 
Department security, but within that security detail there are 
contractors simply because we don't have enough who are on 
direct hire status.
    Ms. Lee. They are not perceived as a private mercenary 
force, or you think that in the future, once we leave, will be?
    Ambassador Hill. Not at all. They are there for the 
specific purpose of providing protection. Similarly, we have a 
private security contract for security guards along the 
perimeter of our Embassy to protect against truck bombs or that 
sort of, you know, forced entry into our compound. I want to 
stress, though, with regard to the damage in Iraq, you know, we 
have provided an enormous amount of funds to Iraq.
    We have provided funds for reconstruction of facilities 
that were damaged, we have provided funds for training of not 
only their security forces, but also training of their civilian 
sector in healthcare and other things like that. At some point 
these need to start coming down. We are getting to the point 
where some of these outlays are going to start reducing in the 
coming years. That is why it is very important that the Iraqis 
pick up the pace in terms of developing their own sources of 
funds.
    Ms. Lee. What about any permanent military bases? You know, 
we hear that there are, there may be some, there are some under 
construction.
    Ambassador Hill. There has been no discussion or planning 
of that. Our effort is on full compliance with the security 
agreement. We think that is the best way to keep faith with the 
Iraqi people and the best way to open up what we hope will be a 
very good civilian relationship for years to come.
    Ms. Lee. Okay. Thank you very much. Again, congratulations.
    Mr. Ackerman. Ambassador, thank you very much for your 
major contribution to our deliberations and understanding of 
the issues. On behalf of the committee, we all express our 
appreciation. I would like to thank the public for their 
interest and participation as well on behalf of the entire 
committee. Hearing stands adjourned.
    Ambassador Hill. Thank you very much.
    [Whereupon, at 11:26 a.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre></body></html>
